ti

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief of
Amicus Curiae the Buckeye Institute in Support of
Petitioners in 20-1088, David Carson, as parent and
next friend of O.C., et al. v. A. Pender Makin, in her
official capacity as Commissioner of the Maine
Department of Education, were sent via Next Day
Service to the U.S. Supreme Court, and via Next Day
Service to the following parties listed below, this 10th
day of September, 2021:
Michael Eugene Bindas
Institute for Justice
600 University Street
Suite 1730
Seattle, WA 98101
(206) 957-1300
mbindas@ij.org

Counsel for Petitioners
Sarah Ann Forster
Office of the Attorney General
6 State House Station
Augusta, ME 04333
(207) 626-8866
sarah.forster@maine.gov

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

, 8790 Governor's Hill Drive

Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
, Washington, DC 20005

Larry J. Obhof, Jr.
Counsel of Record
Shumaker, Loop & Kendrick, LLP
41 South High Street,
Suite 2400
Columbus, OH 43215
(614) 463-9441
lobhof@shumaker.com
Robert Alt
The Buckeye Institute
88 East Broad Street,
Suite 1300
Columbus, OH 43215
(614) 224-4422
robert@buckeyeinstitute.org

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 10, 2021.

71-ALO

Donna J. Wolf
Becker Gallagher egal Pu
g, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date: ~~ 4_ j 0 /

(jiyt._ tJ,

Notary Public

<JD irl

/J~
·

[seal]

..

